Office of Material Loss Reviews
Report No. MLR-10-043


Material Loss Review of United Commercial
Bank, San Francisco, California




                                   July 2010
                                      Executive Summary
                                      Material Loss Review of United Commercial
                                      Bank, San Francisco, California

                                                                                     Report No. MLR-10-043
                                                                                                  July 2010

Why We Did The Audit
On November 6, 2009, the California Department of Financial Institutions (CDFI) closed United
Commercial Bank (UCB), San Francisco, California, and named the FDIC as receiver. On January 20,
2010, the FDIC notified the Office of the Inspector General (OIG) that UCB’s total assets at closing were
$10.9 billion and the estimated loss to the Deposit Insurance Fund (DIF) was $1.4 billion. As of June 25,
2010, the estimated loss to the DIF had increased to $1.5 billion.

As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the OIG conducted a material
loss review of this failure. The primary objectives of this review were to (1) determine the causes of
UCB’s failure and the resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of UCB,
including the FDIC’s implementation of the Prompt Corrective Action (PCA) provisions of section 38 of
the FDI Act. In November 2008, UCB’s holding company, United Commercial Bank Holdings, Inc.
(UCBH), received $298.7 million through the United States Department of the Treasury’s (Treasury)
Troubled Asset Relief Program’s (TARP) Capital Purchase Program (CPP), which resulted in a loss to the
Treasury when UCB failed. As a result, we added a third objective to this review, which was to
determine whether the FDIC followed applicable procedures in recommending UCBH for CPP funding
and in monitoring UCB’s compliance with the CPP securities purchase agreement with the Treasury.


Background
UCB was a state, nonmember commercial bank, and the only significant subsidiary of UCBH, a one-bank
holding company, which operated essentially as a shell company. UCB’s assets comprised 99.5 percent
of UCBH’s assets.

UCB was founded as United Federal Savings and Loan Association in 1974 to serve the financial needs
of San Francisco’s Chinese community. As the Chinese-American population grew and expanded
throughout California, the institution became United Savings Bank, Federal Savings Bank, enabling it to
provide statewide banking services. In 1998, to reflect its rapidly growing focus on commercial banking
activities, the institution converted its charter from a savings and loan regulated by the Office of Thrift
Supervision to a commercial bank regulated by the FDIC, and was renamed UCB.

The bank was headquartered in San Francisco and provided a full range of commercial and consumer
banking products to small- and medium-sized businesses, professionals, and other individuals. Beginning
in the late 1990s, UCB expanded beyond its core market of California through mergers and acquisitions,
both domestically and abroad.


Audit Results
Causes of Failure and Material Loss

The primary reason for UCB’s failure was inadequate oversight by the Board of Directors (Board) and
management. In particular, UCB’s Board and management failed to control the risks associated with the
institution’s rapid expansion, which began in 2002. Further, management controls were insufficient to
prevent the occurrence of inaccuracies, omissions, and misrepresentations that affected key UCB financial




                                 To view the full report, go to www.fdicig.gov
                                     Material Loss Review of United Commercial
   Executive Summary                 Bank, San Francisco, California
                                                                                     Report No. MLR-10-043
                                                                                                  July 2010

data. In this regard, examiners informed UCB’s external auditor of asset quality issues identified in the
FDIC’s April 2009 targeted review, which in part led to an investigation commissioned by UCBH’s audit
committee in May 2009. The investigation found that various UCB officials misrepresented or omitted
relevant loan performance data, altered documents to improve the perception of loan quality, and made
other misrepresentations that impacted UCBH’s financial statements. UCBH reported that its 2008
financial statements were materially inaccurate and required revision. The investigation and UCBH’s
inaccurate financial statements made it harder for UCB to raise the capital the bank needed in 2009 to
absorb substantial provisions and losses associated with its loan portfolio.

Also contributing to the failure were UCB’s high concentrations in acquisition, development, and
construction (ADC) and commercial real estate (CRE) loans and heavy reliance on non-core funding
sources to support its expansion efforts, all of which increased the bank’s risk profile. UCB management
was reluctant to downgrade troubled loans in a timely manner, in an effort to mask deteriorating financial
conditions. As the real estate market declined, UCB experienced increasing levels of adversely classified
assets and associated losses, which required significant increases to its allowance for loan and lease
losses. Losses and provisions associated with ADC and CRE concentrations eroded the bank’s earnings
and capital and led to deficient liquidity. Absent an adequate capital infusion and improvement to the
bank’s liquidity position, the CDFI closed UCB on November 6, 2009 because it was no longer viable.

The FDIC’s Supervision of UCB
The FDIC conducted timely and regular examinations of UCB and monitored its condition through offsite
monitoring mechanisms. The examinations included onsite reviews of UCB’s Hong Kong branch and a
bank that it owned in China in 2008 and 2009, respectively. San Francisco Regional Office officials told
us that misrepresentations and financial reporting matters that were identified in the investigation masked
the bank’s true financial condition and frustrated examination efforts in late 2008 and into 2009. Through
its supervisory efforts, the FDIC identified key risks in UCB’s operations and brought these risks to the
attention of the institution’s Board and management in examination reports and other correspondence.
The FDIC also instituted a Bank Board Resolution in 2008 to address UCB’s non-compliance with the
Bank Secrecy Act and a Cease and Desist Order in 2009 requiring UCB to develop an adequate capital
restoration plan. Finally, the FDIC implemented applicable PCA provisions of section 38 of the FDI Act
in a timely manner.

Notwithstanding these supervisory efforts:

       Given UCB Board and management weaknesses reported during 2007 through 2009, a lower
        Management component rating may have been justified earlier than April 2009;

       While the Division of Supervision and Consumer Protection (DSC) downgraded UCB’s Asset
        Quality component rating in consecutive examinations and targeted reviews during 2008 and
        2009, given the bank’s rapidly deteriorating financial condition, an informal supervisory action
        based on the December 2008 visitation may have been warranted; and

       Although DSC noted that it closely monitored UCB in 2008, had DSC transitioned UCB to a
        targeted review schedule during that year, the FDIC may have had additional information upon
        which to base its October 2008 CPP funding recommendation.




                                To view the full report, go to www.fdicig.gov
                                     Material Loss Review of United Commercial
   Executive Summary                 Bank, San Francisco, California
                                                                                     Report No. MLR-10-043
                                                                                                  July 2010

We also determined that while the FDIC monitored UCB through the FDIC's Large Insured Depository
Institution (LIDI) program, as required, the FDIC’s quarterly LIDI ratings were lower than UCB
examination ratings during 2008, reflecting the more forward-looking orientation of the LIDI program.

Capital Purchase Program

On November 14, 2008, UCBH received $298.7 million in TARP CPP funds and subsequently down-
streamed the money to UCB. Treasury lost this investment when UCB was closed on November 6, 2009.
UCB was the first depository institution to lose CPP funds. Nevertheless, we determined that (1) the
FDIC followed applicable procedures in recommending UCBH for CPP funding and (2) examiners
evaluated UCB’s compliance with the CPP Securities Purchase Agreement in accordance with DSC
guidance. The FDIC was not aware of UCB’s serious financial reporting matters when it assessed UCB’s
TARP application in October 2008; these matters became apparent in 2009, after the investigation by
UCBH’s audit committee.


Management Response

After we issued our draft report, management provided additional information for our consideration, and
we revised our report to reflect this information, as appropriate. On July 20, 2010, the Director, DSC,
provided a written response to the draft report. That response is provided in its entirety as Appendix 5 of
this report.

DSC reiterated the OIG’s conclusions regarding the causes of UCB’s failure. With regard to our
assessment of the FDIC’s supervision of UCB, DSC stated that from 2005 through 2009, the FDIC and
the CDFI jointly and separately completed several examinations, visitations, reviews, and other oversight
activities of UCB. Through these activities, examiners identified key risks and brought them to the
attention of UCB’s Board and management in examination reports and other correspondence. DSC
pointed out that in December 2008, the FDIC and the CDFI downgraded UCB’s Asset Quality and
Earnings component ratings to “3” and identified further deterioration during an April 2009 joint targeted
review. DSC also stated that UCBH’s external auditor found that UCB’s management had begun to
conceal serious financial reporting issues around October 2008.

Finally, DSC stated that it has issued guidance from 2006 through 2009 that re-emphasizes the
importance of monitoring institutions that have concentrated ADC and CRE exposures and rely on
volatile non-core funding sources.




                                To view the full report, go to www.fdicig.gov
                               Contents
                                                                      Page

Background                                                            2
  UCB History                                                         2
  Mergers and Acquisitions                                            3
  TARP                                                                4

Causes of Failure and Material Loss                                   5
  Board and Management Oversight                                      5
  Investigation of UCB                                                6
  ADC and CRE Loan Concentrations                                     8
  Insufficient Capital and Liquidity                                  13

The FDIC’s Supervision of UCB                                         14
   Supervisory History                                                15
   Supervisory Response to Board and Management Oversight             18
   Supervisory Response to UCB’s Asset Quality                        22
   Use of Targeted Reviews                                            25
   LIDI Program                                                       26
   Implementation of PCA                                              27

Capital Purchase Program                                              28
  CPP Criteria                                                        28
  The FDIC’s Recommendation of UCBH for CPP Funding                   29
  Examiners’ Evaluation of UCB’s Compliance with the CPP Securities   31
      Purchase Agreement

Corporation Comments                                                  33

Appendices 
  1. Objectives, Scope, and Methodology                               34
  2. Glossary of Terms                                                37
  3. Acronyms                                                         41
  4. Organizational Chart                                             43
  5. Corporation Comments                                             44

Tables
   1. Selected Financial Information for UCB                          3
   2. UCB’s Merger and Acquisition History                            4
   3. UCB’s ADC and CRE Concentrations as a Percentage of Total       9
      Risk-based Capital
   4. UCB’s Non-Core Funding Sources                                  11
   5. UCB’s Adverse Classifications and ALLL                          13
   6. Onsite Examinations of UCB                                      16
   7. FDIC, FRBSF, and CDFI Supervisory Actions Concerning UCB        18
   8. LIDI Rating Descriptions                                        26
   9. UCB’s Capital Levels                                            27
                              Contents
                                                               Page

Figures
   1. Composition of UCB’s Loan Portfolio, 2002 to 2009         9
   2. UCB’s ADC Loans as a Percentage of Average Gross Loans   10
      Compared to Peers
   3. UCB’s CRE Loans as a Percentage of Average Gross Loans   11
      Compared to Peers
   4. UCB’s Net Non-Core Funding Dependence Ratio              12
Federal Deposit Insurance Corporation                                          Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, VA 22226                                             Office of Inspector General


DATE:                                     July 20, 2010

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  Material Loss Review of United Commercial Bank, San
                                          Francisco, California (Report No. MLR-10-043)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the Office of
Inspector General (OIG) conducted a material loss review of the failure of United
Commercial Bank (UCB), San Francisco, California. On November 6, 2009, the
California Department of Financial Institutions (CDFI) closed UCB and appointed the FDIC
as the receiver. On January 20, 2010, the FDIC notified the OIG that UCB’s total assets
at closing were $10.9 billion and the estimated loss to the Deposit Insurance Fund (DIF)
was $1.4 billion. As of June 25, 2010, the estimated loss to the DIF had increased to
$1.5 billion.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The primary objectives of this material loss review were to (1) determine the causes of
UCB’s failure and the resulting material loss to the DIF and (2) evaluate the FDIC’s
supervision of UCB, including the FDIC’s implementation of the PCA provisions of
section 38 of the FDI Act. In November 2008, UCB’s holding company, United
Commercial Bank Holdings, Inc. (UCBH), received $298.7 million through the United
States Department of the Treasury’s (Treasury) Troubled Asset Relief Program’s (TARP)
Capital Purchase Program (CPP), and down-streamed the funds to UCB.1 The Treasury
lost this investment when UCB failed. As a result, we added a third objective to this
review, which was to determine whether the FDIC followed applicable procedures in
recommending UCBH for CPP funding and in monitoring UCB’s compliance with the


1
 UCB and UCBH were separate entities. For technical accuracy, certain parts of this report refer to UCB
and other parts refer to UCBH.
CPP Securities Purchase Agreement with the Treasury.2 We coordinated with the Special
Inspector General for the Troubled Asset Relief Program in completing this objective.

The report does not contain formal recommendations. Instead, as major causes, trends,
and common characteristics of institution failures are identified in our material loss
reviews, we will communicate those to FDIC management for its consideration. As
resources allow, we may also conduct more in-depth reviews of specific aspects of the
FDIC’s supervision program and make recommendations as warranted.3

Appendix 1 contains details on our objectives, scope, and methodology. We also include
several other appendices to this report. Appendix 2 contains a glossary of key terms;
including material loss, the FDIC’s supervision program, and the Uniform Financial
Institutions Rating System, otherwise known as the CAMELS ratings. Appendix 3
contains a list of acronyms; Appendix 4 contains an organizational chart; and Appendix 5
contains the Corporation’s comments on this report.

Background

UCB History

UCB was a state, nonmember commercial bank, and the only significant subsidiary of
UCBH, a one-bank holding company, which operated essentially as a shell company.
UCB’s assets comprised 99.5 percent of UCBH’s assets. (See the organizational chart in
Appendix 4.)

UCB was founded as United Federal Savings and Loan Association in 1974 to serve the
financial needs of San Francisco’s Chinese community. As the Chinese-American
population grew and expanded throughout California, the institution became United
Savings Bank, Federal Savings Bank, enabling it to provide statewide banking services.
In 1998, to reflect its rapidly growing focus on commercial banking activities, the
institution converted its charter from a savings and loan regulated by the Office of Thrift
Supervision (OTS) to a commercial bank regulated by the FDIC, and was renamed UCB.

The bank was headquartered in San Francisco and provided a full range of commercial
and consumer banking products to small- and medium-sized businesses, professionals,
and other individuals. Beginning in the late 1990s, UCB expanded beyond its core
market of California through mergers and acquisitions, both domestically and abroad.
UCBH issued trust preferred securities4 or its own common stock to fund a number of the
bank’s acquisitions.


2
  The CPP Securities Purchase Agreement describes the terms of a financial institution’s agreement to issue
shares and fulfill other requirements in exchange for the Treasury’s investment.
3
  A further discussion of OIG-related coverage of financial institution failures can be found in the
Objectives, Scope, and Methodology section of our report.
4
  Trust preferred securities are securities issued by a wholly-owned trust subsidiary of a bank holding
company to raise capital.




                                                     2
UCBH was incorporated in 1998 in Delaware and was regulated by the Federal Reserve
Bank of San Francisco (FRBSF). UCBH and its subsidiaries operated 71 branches or
offices in California, New York, Georgia, New England, the Pacific Northwest, and
Texas; and had branches and representative offices in Hong Kong, China, and Taiwan.
UCBH became a publicly-traded company on November 5, 1998, when it began trading
on the NASDAQ stock exchange.

Table 1 summarizes UCB’s financial information from 2004 through September 2009.

Table 1: Selected Financial Information for UCB
 Financial Measure       Dec-04      Dec-05          Dec-06      Dec-07      Dec-08      Sept-09
 Total Assets ($000s)    6,311,706 7,953,849 10,324,737 11,780,002 13,476,095            10,895,336
 Total Loans ($000s)     4,381,749 6,070,282 6,778,521 8,009,287 8,670,687                7,703,981
 Total Deposits
 ($000s)                 5,222,762 6,275,530         7,214,319   7,800,631   9,057,304    7,653,666

 Net Income ($000s)         93,818     109,590         109,990    116,498     (54,253)   (1,085,667)
 Brokered
 Deposits/Total
 Deposits                   0.00%        2.50%          2.91%       2.10%      13.39%       13.56%
 Federal Home Loan
 Bank (FHLB)
 Advances /
 Total Liabilities          6.31%      10.90%          15.39%      15.04%      14.60%       16.65%
 Return on Average
 Assets                     1.58%        1.57%          1.34%       1.11%      (0.42%)     (11.12%)
 Net Interest Margin        3.84%        3.78%          3.54%       3.54%        2.94%        2.44%
 Noncurrent
 Loans/Gross Loans          0.41%        0.40%          0.26%       1.08%       6.11%       14.06%
Source: Uniform Bank Performance Reports (UBPR).

Mergers and Acquisitions

UCB’s primary merger and acquisition activities occurred from 2002 through 2007, as
shown in Table 2 on the following page. UCB’s strategic plan included growing its
assets to more than $10 billion, in part, to meet foreign criteria to purchase a bank in the
People’s Republic of China. UCB achieved this goal when its assets exceeded
$10 billion in the fourth quarter of 2006. In December 2007, UCB became the first state
nonmember bank in the United States to wholly own a bank in the People’s Republic of
China when it purchased Business Development Bank Limited, since renamed United
Commercial Bank (China) Limited (UCBC). UCBC operated as a wholly-owned
subsidiary of UCB and, as of September 2009, had total assets of $565 million and total
deposits of $132 million.




                                                 3
Table 2: UCB’s Merger and Acquisition History
                                                                         Assets of
                                                      Type of           Institution      Date of Merger
Name of Financial Institution                         Institution         ($000s)        or Acquisition
USB Holdings                                          Thrift              $1,561,594            4/21/1998
Bank of Canton of California                          Bank                $1,389,977           10/29/2002
BNB Financial Services Corporation (UCB               Bank                   $12,732           12/16/2002
acquired 1 branch)
UCB Hong Kong branch                                  Bank                $1,400,000            7/09/2003
First Continental Bank                                Bank                  $334,215            7/11/2003
Pacifica Bancorp, Inc.                                Bank                  $164,336           10/31/2005
Asian American Bank & Trust Company                   Bank                  $129,931           11/28/2005
Summit Bank Corporation                               Bank                  $656,702           12/29/2006
Chinese American Bank Holding, LLC                    Bank                  $321,597            5/23/2007
Business Development Bank Limited (now                Bank                 $338,700            12/10/2007
called UCBC)
Source: SNL Financial and UCB’s Form 10-K filed with the Securities and Exchange Commission (SEC) for
the fiscal year ended December 31, 2008. SNL Financial collects, standardizes, and disseminates merger
and acquisition, corporate, financial, and market data for banks, financial services, and other agencies and
industries.

TARP

In October 2008, Congress passed and the President signed the Emergency Economic
Stabilization Act of 2008 (EESA), which authorized the TARP and provided authority for
the federal government to purchase up to $700 billion of troubled assets to provide
stability to the economy and the nation’s financial system. One TARP program, the CPP,
allowed the Treasury to purchase up to $250 billion of preferred stock in qualifying
financial institutions. Through the CPP, institutions submitted applications to the FDIC
or other appropriate federal banking agency,5 which made recommendations to the
Treasury on whether to approve or deny CPP requests. In turn, the Treasury determined
the final eligibility and allocations for interested parties. The deadline to fund institutions
through the CPP ended on December 31, 2009.

On November 14, 2008, UCBH received $298.7 million in TARP CPP funds and
subsequently down-streamed the money to UCB. Treasury lost this investment when
UCB was closed on November 6, 2009. UCB was the first depository institution to lose
TARP funds. We discuss the specific criteria for approving these funds, the FDIC’s role
in recommending UCBH for CPP funding, and the FDIC’s monitoring of UCB’s
compliance with CPP provisions later in this report.




5
 The banking agencies are the FDIC, the Board of Governors of the Federal Reserve System (FRB), the
Office of the Comptroller of the Currency (OCC), and the OTS.




                                                     4
Causes of Failure and Material Loss
The primary reason for UCB’s failure was inadequate oversight by the Board of Directors
(Board) and management. In particular, UCB’s Board and management failed to control
the risks associated with the institution’s rapid expansion, which began in 2002. Further,
management controls were insufficient to prevent the occurrence of inaccuracies,
omissions, and misrepresentations that affected key UCB financial data. In this regard,
examiners informed UCB’s external auditor of asset quality issues identified in the
FDIC’s April 2009 targeted review, which in part led to an investigation commissioned
by UCBH’s audit committee. The investigation found that various UCB officials
misrepresented or omitted relevant loan performance data, altered documents to improve
the perception of loan quality, and made other misrepresentations that impacted UCBH’s
financial statements. UCBH reported that its 2008 financial statements were materially
inaccurate and required revision. The investigation and UCBH’s inaccurate financial
statements made it harder for UCB to raise the capital the bank needed in 2009 to absorb
substantial provisions and losses associated with its loan portfolio.

Also contributing to the failure were UCB’s high concentrations in acquisition,
development, and construction (ADC) and commercial real estate (CRE) loans and heavy
reliance on non-core funding sources to support its expansion efforts, all of which
increased the bank’s risk profile. UCB management was reluctant to downgrade troubled
loans in a timely manner, in an effort to mask deteriorating financial conditions. As the
real estate market declined, UCB experienced increasing levels of adversely classified
assets and associated losses, which required significant increases to its allowance for loan
and lease losses (ALLL). Losses and provisions associated with ADC and CRE
concentrations eroded the bank’s earnings and capital and led to deficient liquidity.
Absent an adequate capital infusion and improvement to the bank’s liquidity position, the
CDFI closed UCB on November 6, 2009 because it was no longer viable.

Board and Management Oversight

According to examination reports from 2002 through 2008, UCB’s Board and
management performed satisfactorily and were generally responsive to examination
findings and recommendations, as indicated by Management component ratings of “1” or
“2” during that timeframe. Beginning in 2007, however, examination reports began to
note more significant weaknesses in oversight by UCB’s Board and management. The
reports also indicated that the Board and management were dominated by one individual
who held the titles of President, Chief Executive Officer (CEO), and Chairman of the
Board and was responsible for certain practices that ultimately contributed to the bank’s
failure. Examination reports and related documentation in these latter years noted that
UCB: (1) had a weak Board of Directors and needed increased Board oversight;
(2) management did not provide UCB’s internal loan review unit, the Independent Asset
Review Division (IARD), with the necessary support to fulfill its mandate; (3) needed to
improve its risk management and infrastructure by using better technology and increasing
staffing to accommodate UCB’s rapid growth; (4) was unable to effectively integrate its
foreign operations with its domestic operations; and (5) had high CRE loan




                                             5
concentrations and increases in problem loans. These issues are discussed more fully in
The FDIC’s Supervision of UCB section of this report.

Investigation of UCB

UCBH changed its external auditor from PricewaterhouseCoopers LLC (PwC) to KPMG,
to opine on its 2008 financial statements.6 KPMG provided UCBH with an unqualified
opinion on its 2008 financial statements, dated March 16, 2009.7 However, shortly after
issuing its opinion letter and during its 2009 first quarter review of UCBH’s financial
information, KPMG became suspicious that UCB officials and/or employees had
engaged in illegal acts to conceal the bank’s true financial condition. San Francisco
Regional Office (SFRO) officials stated that FDIC and CDFI examiners met with KPMG
representatives on May 8, 2009, and informed KPMG that the April 2009 targeted review
identified deterioration in UCB’s asset quality and overall financial condition and
prompted UCB to write-down a large number of loans reviewed by examiners. Five days
later, on May 13, 2009, KPMG alerted UCBH’s audit committee that illegal acts may
have occurred at UCB and issued a related letter to the committee on May 15, 2009,
pursuant to section 10A of the Securities Exchange Act of 1934.8 KPMG indicated that
UCB’s potential illegal acts were related to an over-valuation of impaired and real estate
owned (REO) loans, which resulted in a potential understatement of UCB’s ALLL.

KPMG’s notification prompted UCBH’s audit committee to initiate an internal
investigation that began in May 2009 and was completed in September 2009. According
to SFRO officials, KPMG stated that the scope of the investigation needed to take into
account the issues noted in the April 2009 targeted review, some of which were in fact
identified in the investigative report resulting from the audit committee’s investigation.
The investigation’s findings, which were provided to UCBH’s Board and publicly
disclosed, identified serious financial reporting matters, as follows:

    -    Modification of loan terms to delay negative consequences. The investigation
         found instances where bank employees modified loan terms in an effort to delay
         the negative consequences of a weakened borrower. The modifications were


6
  PwC was UCBH’s external auditor from 1999 through 2007. UCBH received an unqualified opinion
from PwC in each of these years. Upon terminating the engagement, PwC represented that it was not
aware of any disagreement with UCBH concerning the scope of its audit or the conformity of UCBH’s
reported financial statements to generally accepted accounting principles.
7
  This report also noted that KPMG identified a material weakness in UCBH’s internal controls related to
its financial reporting. The material weakness resulted in a material misstatement of UCB’s ALLL and its
provision for loan loss reserves.
8
  If during the course of an audit, an auditor becomes aware of potential illegal acts, Section 10A of the
Securities Exchange Act of 1934 requires the auditor to determine the likelihood that an illegal act occurred
and if so, unless the matter is inconsequential, the auditor is required to provide assurance that the
institution’s audit committee is adequately informed about the matter. Pursuant to Section 10A, the auditor
may require the bank’s audit committee to conduct an internal investigation to determine whether a
violation of law occurred that will have a material effect on the institution’s financial statements, what
remediation is required to correct the violation, and whether the institution’s Board and management took
adequate steps to achieve remediation.




                                                     6
           numerous and included extending terms, lowering interest rates, and improperly
           using the interest reserve account.

      -    Intentional delays in recognizing risk rating downgrades or specific reserves.
           The investigation found instances where bank employees acted to delay the
           recognition of a risk rating downgrade, or to minimize the loan loss allowance or
           write-down of REO loans.

      -    Misrepresentation or omission of relevant information. The investigation found
           numerous instances where relevant information was intentionally withheld from
           KPMG, misrepresented to KPMG, or both. It also found instances where
           information was withheld from or misrepresented to the bank’s Finance
           Department.

      -    Inappropriate alteration of documents. The investigation found instances where
           bank employees altered documents in an effort to improve the perception of credit
           quality. In some cases, the alterations either removed or ameliorated negative
           facts that were material to the evaluation of a credit. Other cases included
           backdating documents to make them appear more reliable.

SFRO officials informed us that KPMG estimated these activities started around October
2008. The investigative report concluded that these activities were driven by an apparent
desire of UCB senior executives to mask deteriorating financial conditions by
deliberately delaying risk rating downgrades and minimizing the bank’s overall loan loss
allowance. The investigative report raised serious concerns regarding the actions of a
number of UCB management officials. As a result, UCB’s CEO and Chief Operating
Officer resigned, while others were terminated. The report also contained
recommendations, which were adopted by UCBH’s Board. For example, UCBH’s Board
and management agreed to provide bank employees with additional job training, and to
reprimand, reassign, and in some instances, terminate or demote certain UCB
employees.9

As a result of the investigation, UCBH’s stock price collapsed and several law firms
initiated shareholder class action lawsuits accusing UCBH of falsifying its financial
statements and violating federal securities laws.

Restatement of UCBH’s 2008 Financial Statements

On May 18, 2009, UCBH and its audit committee agreed that (1) UCBH’s consolidated
financial statements, as of and for the year ended December 31, 2008, needed to be
restated and (2) the bank’s earnings release for the first quarter of 2009 should not be
relied upon.

UCBH identified corrections that may have increased its pre-tax losses by approximately
$45 million to $55 million for the year ended December 31, 2008, but this analysis was

9
    UCBH press release dated September 8, 2009.




                                                  7
preliminary and was never finalized as a result of the bank’s closure. The restatement, if
completed, would have resulted in material adjustments to UCB’s loan loss provision and
related ALLL, charge-offs, non-performing loan levels, and other REO expenses for the
quarter and year ended December 31, 2008, which flowed through to UCBH’s financial
statements. Additionally, the re-examination resulted in the need to increase UCB’s first
quarter 2009 ALLL.

UCBH’s failure to restate its 2008 financial statements also delayed and eventually
precluded it from filing its first quarter 2009 filing with the SEC. As a result, UCBH
violated the NASDAQ Marketplace Listing Criteria Rule 5250(c)(1) “Obligation to File
Periodic Financial Reports” and its stock ceased trading on the NASDAQ stock exchange
on November 18, 2009. The investigation’s findings and UCBH’s failure to restate its
financial statements significantly hampered UCB’s ability to raise capital, which
eventually led to the bank’s closing.

ADC and CRE Loan Concentrations

Guidance issued by the FDIC, the OCC, and the FRB entitled, Concentrations in
Commercial Real Estate Lending, Sound Risk Management Practices (Joint Guidance),10
recognizes that there are substantial risks posed by institutions with high ADC and CRE
concentrations. Such risks include unanticipated earnings and capital volatility during a
downturn in the real estate market. The Joint Guidance defines institutions with
significant ADC and CRE concentrations as those reporting:

        ADC loans representing 100 percent or more of total capital; or

        CRE loans representing 300 percent or more of total capital, where the
         outstanding CRE balance increased by 50 percent or more during the prior
         36 months.

According to the Joint Guidance, institutions with such concentrations should employ
heightened risk management practices. In April 2010, the FDIC issued additional
guidance applicable to monitoring CRE concentrations. This guidance identifies areas
examiners should consider when reviewing a bank’s overall risk exposure to CRE loans,
and notes the prudency of monitoring an institution’s exposure to CRE loans.11

As shown in Table 3, UCB’s ADC concentrations exceeded the 100-percent threshold
established in the Joint Guidance from 2006 through 2009. UCB’s CRE concentrations
also significantly and consistently exceeded the 300-percent criteria since at least 2002.12


10
   This guidance, dated December 12, 2006, was developed to reinforce sound risk management practices
for institutions with high and increasing levels of ADC and CRE loans.
11
   Division of Supervision and Consumer Protection (DSC) memorandum, Transmittal No. 2010-007,
entitled: Clarification of Calculation in Guidance on Commercial Real Estate, April 1, 2010.
12
   UCB’s CRE concentrations as a percentage of Total Risk-based Capital were 661.43 percent,
669.56 percent, and 586.05 percent as of December 31, 2002, 2003, and 2004, respectively. We did not
review CRE concentrations prior to 2002.




                                                   8
Table 3: UCB’s ADC and CRE Concentrations as a Percentage of Total Risk-
         based Capital
Loan Type                                     Dec 2005            Dec 2006          Dec 2007         Dec 2008                June 2009
ADC                                           71.68%              126.22%           161.65%          138.51%                 210.98% *
CRE                                           636.92%             568.00%           519.99%          389.05%                 678.38% *
Source: UBPRs for UCB.
* The increases in the concentration levels in 2009 resulted from increasing losses and declining capital
levels, rather than asset growth.

UCB’s significant ADC and CRE concentrations made it more vulnerable to, and were
significantly impacted by, the decline in the commercial real estate sector. Figure 1
presents the composition of UCB’s loan portfolio.

Figure 1: Composition of UCB’s Loan Portfolio, 2002 to 2009

                                     $9,000                                                                        8,671

                                                                                                      8,009                    7,999
                                     $8,000
                                                                                            6,779
                                                                                                                 3,158
                                     $7,000
                                                                                                    2,759                    2,910
                                                                                6,070
 Gross Loans and Leases (Millions)




                                     $6,000                                               2,020
                                                                              1,658
                                     $5,000                           4,382
                                                           3,806
                                     $4,000                           991                                        3,550
                                                  3,039    638                                      3,618                    3,506
                                     $3,000                                               3,701
                                                 629
                                                                              3,916

                                     $2,000                          3,109
                                                          2,873
                                                2,194
                                     $1,000                                                                      1,963
                                                                                                    1,632                    1,583
                                                                                          1,057
                                                 216       294        282      497
                                        $0
                                               Dec        Dec       Dec       Dec         Dec       Dec        Dec           June
                                               2002       2003      2004      2005        2006      2007       2008          2009
                                                                              Period Ended
                                              ADC Loans                 Other CRE Loans                    All Other Loans

Source: Consolidated Reports of Condition and Income (Call Reports) for UCB.

As of June 2009, UCB’s ADC and CRE concentrations represented 22 percent and
64 percent of its average gross loans, respectively, as shown in Figures 2 and 3. These
percentages placed UCB in the 83rd percentile of its peer group for ADC loans and the



                                                                                9
85th percentile for all other CRE loans, as of June 2009. UCB’s peer group was
comprised of 189 commercial banks, each with assets greater than $3 billion.13

UCB was particularly competitive with certain banks in its peer group that served similar
markets and had similar ADC and CRE concentrations. Former FDIC and UCB staff
interviewed indicated that UCB overpaid for certain acquisitions as a result of this
competition and approved numerous exceptions to its loan policies in order to originate
more loans.

Figure 2: UCB’s ADC Loans as a Percentage of Average Gross Loans Compared
          to Peers

                                        25.00%
                                                                                                              21.70%
                                                                                                     21.65%
     ADC Loans to Average Gross Loans




                                        20.00%
                                                                                            17.76%


                                        15.00%
                                                                                                                           UCB
                                                                                   11.91%
                                                                                                                           Peers
                                                                                                11.75% 11.42%
                                        10.00%
                                                 7.47% 7.60%               7.87%                              10.57%
                                                                  6.64%               9.66%

                                                                   6.40%    7.03%
                                        5.00%
                                                 5.49%    5.55%


                                        0.00%
                                            Dec-02       Dec-03   Dec-04   Dec-05     Dec-06   Dec-07    Dec-08   Jun-09
                                                                            Period Ended

Source: UBPRs for UCB.




13
  This classification is based on the UBPR, which categorizes commercial banks into one of 15 peer
groups based on asset size, number of branches, and whether the bank is located in a metropolitan or non-
metropolitan area.




                                                                                     10
Figure 3: UCB’s CRE Loans as a Percentage of Average Gross Loans Compared
          to Peers

                                     90.00%

                                     80.00%
  CRE Loans to Average Gross Loans



                                               78.50%    80.91% 79.77%
                                     70.00%
                                                                             75.31%    71.41%
                                                                                                69.42%
                                     60.00%
                                                                                                         64.51%   63.75%
                                     50.00%                                                                                     UCB
                                     40.00%                                                                                     Peers

                                     30.00%
                                                                                           35.20%         35.10% 35.71%
                                                                    26.38%   28.78% 32.63%
                                     20.00%
                                              22.39%    23.21%
                                     10.00%

                                     0.00%
                                              Dec-02 Dec-03 Dec-04 Dec-05 Dec-06 Dec-07 Dec-08                    Jun-09
                                                                             Period Ended

Source: UBPRs for UCB.

Reliance on Non-Core Funding Sources

UCB increasingly relied on non-core funding sources to support increased ADC and CRE
lending, as shown in Table 4. The February 2008 examination noted that UCB was
overly dependent on non-core funding sources, which could strain liquidity in the future.

Table 4: UCB’s Non-Core Funding Sources
                                                                                       Period Ended
 Funding
 Sources ($000s)                                       Dec-04        Dec-05       Dec-06        Dec-07       Dec-08        Sept-09
 Total Deposits                                    5,222,762 6,275,530 7,214,319 7,800,631 9,057,304 7,653,666
 Time Deposits
 ($100,000 or
 more)                                             1,610,270 1,965,157 2,104,229 2,247,531 2,038,587 1,746,499
 Federal Funds
 Purchases and
 Resale                                                      0              0   401,600   728,000   700,000   773,434
 FHLB Advances                                         360,952        788,031 1,434,718 1,566,183 1,716,757 1,741,565
 Brokered
 Deposits                                                       0     156,744     210,063        163,505 1,213,034 1,037,608
Source: UBPRs for UCB.

The net non-core funding dependence ratio shows the degree to which a bank relies on
potentially volatile liabilities to fund long-term earning assets. Generally, the lower the




                                                                                  11
dependence ratio, the less risk exposure there is for the bank. As shown in Figure 4,
UCB’s net non-core funding ratio was consistently above its peers since at least 2002.14

Figure 4: UCB's Net Non-Core Funding Dependence Ratio
                  60
                                                                     54.38%    54.47%
                                                                                         57.00%
                                                            49.91%
                  50                              46.60%


                  40   37.78%   37.57%   36.72%
     Percentage




                                                                               38.23%
                                                            33.81%    34.74%                         UCB
                  30            32.96%   32.57%   33.19%                                 32.73%
                       30.58%                                                                        Peers


                  20


                  10


                   0
                       Dec-02   Dec-03   Dec-04   Dec-05   Dec-06    Dec-07    Dec-08   Sept-09
                                                  Period Ending

Source: UBPRs for UCB.

Allowance for Loan and Lease Losses and Adversely Classified Items

The Interagency Policy Statement on the Allowance for Loan and Lease Losses requires
institutions to maintain an appropriate ALLL level, discusses items that need to be
addressed in written policies and procedures, and describes methodologies that
institutions should use to determine an appropriate ALLL level.

From 2002 through 2007, UCB had low levels of adversely classified items, and
examiners did not identify a need for the bank to increase its ALLL. The February 2008
examination noted increases in adverse classifications and deterioration in the bank’s
asset quality. As a result, UCB downgraded a significant number of construction loans.
The December 2008 visitation identified further deterioration in UCB’s asset quality,
with increased problem assets centered around UCB’s ADC loan portfolio.

By the April 2009 targeted review, examiners identified sharp increases in adversely
classified assets and due to deteriorating market conditions and inaccurate loan grades,
UCB downgraded a significant number of loans in its construction, commercial, and
commercial real estate portfolios. Although the August 2009 targeted review draft
report15 noted some improvements in UCB’s loan grading system, examiners found the
14
     We did not examine this ratio prior to 2002.
15
     The SFRO did not finalize this report because UCB was closed before a final report could be issued.




                                                           12
system to be inadequate and asset quality to be critically deficient. UCB again
downgraded additional loans as a result of examiners’ findings and the draft review noted
that several deficient lending practices heavily contributed to UCB’s excessive level of
adversely classified assets.

Sharp increases in adversely classified assets caused UCB’s ALLL to be significantly
underfunded in 2008 and 2009. As a condition for UCB’s external auditor to issue an
unqualified opinion on UCBH’s 2008 financial statements, UCB increased its ALLL by
$40 million as of December 31, 2008. As shown in Table 5, examiners recommended
increases to the ALLL in 2008 and 2009.

Table 5: UCB’s Adverse Classifications and ALLL
                                             UCB’s
                      Adverse                Funding for          Recommended          Adversely
 Examination          Classifications        ALLL                 Increase             Classified Items
 Dates                                          ($000s)                                Coverage Ratio a
 1/10/2005                        53,282               62,927                None                   9.55%
 1/30/2006                        64,455               63,150                None                  10.11%
 3/05/2007                        54,064               68,847                None                   6.45%
 2/27/2008                       303,779               85,468               35,000                 34.34%
 12/01/2008 b                    655,192              126,637                None                  47.42%
 4/06/2009 c                   1,445,850              281,887              106,466                107.03%
 8/03/2009 c, d                1,775,494              356,924               16,217                206.26%
Source: FDIC examination reports.
a
  This ratio is computed by dividing the dollar amount of adverse classifications by Tier 1 Capital plus ALLL
and off-balance sheet reserves.
b
  Visitation c Targeted Review d A final report was not issued due to UCB’s closure.

Insufficient Capital and Liquidity

UCB’s asset quality continued to decline in 2009, which depleted earnings and eroded
capital. As the real estate market declined, UCB experienced increasing levels of
adversely classified assets and associated losses and significant increases in its ALLL.
The August 2009 targeted review draft report noted loss provisions totaling $499 million,
which contributed to a $288 million net loss for the second quarter of 2009. UCB
became Undercapitalized for PCA purposes in June 2009 and Significantly
Undercapitalized in September 2009.

UCB’s efforts to raise sufficient capital in 2009 were significantly hampered due to the
investigation’s findings and UCBH’s inability to file accurate financial statements, and
were ultimately unsuccessful. The August 2009 targeted review draft report estimated
that an $800 million to $1.1 billion capital injection, or more, was needed to return UCB
to a Well Capitalized status.16 The draft review found that UCBH was no longer able to
provide support to UCB, as it had negligible cash, no access to equity markets, and was
subject to significant shareholder lawsuits.


16
   Examiners had a difficult time estimating UCB’s actual capital needs at the time of the August 2009
targeted review, due to the ongoing need to restate UCB’s 2008 financial statements.




                                                      13
On September 15, 2009, UCB submitted a written capital restoration plan to achieve a
Well Capitalized status by December 31, 2009. The FDIC deemed the plan to be
unacceptable and unrealistic and, in a PCA directive dated November 2, 2009, required
UCB to submit a revised plan. UCB did not do so before it failed.

Liquidity

UCB’s strained liquidity threatened its ability to meet depositor demands. The February
2008 examination stated that UCB’s volatile liability dependence had steadily increased
over the prior 3 years and that certain liquidity ratios exceeded UCB’s own policy limits.
Between September 9, 2009 and September 23, 2009, UCB experienced massive
domestic depositor withdrawals, averaging $44 million per day. The withdrawals were
precipitated by the investigation, UCB’s deteriorating financial condition, the publicized
resignations of UCB’s President and Chief Operating Officer on September 4, 2009, and
associated regulatory actions. Additionally, as of September 2009, most of the bank’s
$1.1 billion in brokered deposits were due to mature in a year and UCB’s ability to
replace those deposits or obtain alternative funding was uncertain.

Further, in September 2009, UCB’s Hong Kong branch office was operating under
standard liquidity restrictions imposed by the Hong Kong Monetary Authority. While the
branch appeared to have an adequate long-term liquidity position, it lacked the short-term
working capital necessary to process customer transactions. The lack of short-term
working capital at the Hong Kong branch strained UCB’s domestic operations because
the branch relied on capital from UCB.

Absent an immediate improvement to the bank’s liquidity position and an adequate
capital infusion, the CDFI closed UCB since it was no longer viable.


The FDIC’s Supervision of UCB
The FDIC conducted timely and regular examinations of UCB and monitored its
condition through offsite monitoring mechanisms. The examinations included onsite
reviews of UCB’s Hong Kong branch and UCBC in 2008 and 2009, respectively.
Through its supervisory efforts, the FDIC identified key risks in UCB’s operations and
brought these risks to the attention of the institution’s Board and management in
examination reports and other correspondence. As noted earlier, examiners told us that
they informed KPMG of asset quality issues identified in the FDIC’s April 2009 targeted
review, which in part led to an investigation that uncovered serious financial reporting
matters. The FDIC also instituted a Bank Board Resolution (BBR) in 2008 to address
UCB’s non-compliance with the Bank Secrecy Act (BSA) and a Cease and Desist Order
in 2009 requiring UCB to develop an adequate capital restoration plan. Finally, the FDIC
implemented applicable PCA provisions of section 38 of the FDI Act in a timely manner.




                                            14
Notwithstanding these supervisory efforts:

      Given UCB Board and management weaknesses reported during 2007 through
       2009, a lower Management component rating may have been justified earlier than
       April 2009;

      While DSC downgraded UCB’s Asset Quality component rating in consecutive
       examinations and targeted reviews during 2008 and 2009, given the bank’s
       rapidly deteriorating financial condition, an informal supervisory action based on
       the December 2008 visitation may have been warranted; and

      Although DSC noted that it closely monitored UCB in 2008, had DSC
       transitioned UCB to a targeted review schedule during that year, the FDIC may
       have had additional information upon which to base its October 2008 CPP
       funding recommendation.

We also determined that while the FDIC monitored UCB through the FDIC's Large
Insured Depository Institution (LIDI) program, as required, the FDIC’s quarterly LIDI
ratings were lower than UCB examination ratings during 2008, reflecting the more
forward-looking orientation of the LIDI program.

Supervisory History

The FDIC and the CDFI performed six examinations, three targeted reviews, and one
visitation of UCB from 2002 until the bank was closed on November 6, 2009. Table 6
summarizes key information, including the implementation of formal and informal
actions that resulted from this joint oversight.




                                             15
Table 6: Onsite Examinations of UCB
  Examination         Examination                            Supervisory
   Start Date          as of Date            Agency            Ratings         Informal or Formal Action
 6/24/2002              3/31/2002            FDIC            212221/2          None
 12/01/2003            9/30/2003           FDIC/CDFI         212221/2          None
 1/10/2005             9/30/2004           FDIC/CDFI         212121/2          None
 1/30/2006             9/30/2005           FDIC/CDFI         211121/1          None
 3/05/2007             12/31/2006          FDIC/CDFI         212122/2          None
 2/27/2008             12/31/2007          FDIC/CDFI         222222/2          BBR to address BSA non-
                                                                               compliance, effective
                                                                               July 24, 2008; terminated
                                                                               June 30, 2009.
 12/01/2008 a           9/30/2008          FDIC/CDFI          232322/2         None


 4/06/2009 b            3/31/2009          FDIC/CDFI          344433/4         Interim downgrade to a
                                                                               composite “3,” effective
                                                                               April 20, 2009. Cease and
                                                                               Desist Order issued on
                                                                               September 3, 2009.
 6/16/2009 b            5/31/2009          FDIC/CDFI         344433/4          None.
 8/03/2009 b, c         6/30/2009          FDIC/CDFI         555555/5          PCA Notification letter:
                                                                               August 11, 2009.
                                                                               Cease and Desist Order:
                                                                               September 3, 2009.
                                                                               PCA Directive:
                                                                               November 2, 2009.
Source: OIG analysis of examination reports and information in the FDIC’s Virtual Supervisory Information
on the Net system for UCB, Orders, and Directives.
a
  Visitation b Targeted Review c A final report was not issued due to UCB’s closure.


As discussed in the Causes of Failure and Material Loss section of this report, an
investigative report found that UCB officials made intentional misrepresentations in an
effort to mask the bank’s true financial condition. SFRO officials told us that these
activities hindered examiners’ efforts to identify risks and assign accurate CAMELS
ratings in late 2008 and into 2009. For example, UCB officials:

       presented examiners with inaccurate information on certain occasions regarding
        the loans they reviewed;

       did not provide examiners with a December 2008 IARD loan review report until
        approximately 3 months after it was prepared, and this report would have shed
        light on UCB’s declining loan performance; and

       were not forthright with examiners when questioned about loan loss provision
        expenses for the fourth quarter of 2008.




                                                    16
Offsite Review Program

The Offsite Review Program is designed to identify emerging supervisory concerns and
potential problems so that the FDIC’s oversight strategy can be adjusted appropriately.
Included in this program is an Offsite Review List (ORL), which consists of “1”- and
“2”-rated institutions that have been identified with potential problems or pose the risk of
being downgraded to a “3” rating or worse at the next examination. Institutions that
appear on the ORL warrant additional FDIC oversight.

UCB appeared on the ORL three times as follows:

      June 2008: Prompted due to a potential downgrade resulting from an increase in
       UCB’s non-performing assets and historical high levels of CRE concentrations.
       In response, the FDIC recommended ongoing monitoring of UCB and noted that
       UCB would be switched to a targeted review schedule.

      September 2008: Prompted due to a recommended downgrade in UCB’s Asset
       Quality and Earnings component ratings, each from a “2” to a “3,” as a result of
       UCB’s increase in classified assets and decline in profitability. These component
       ratings were downgraded as a result of the December 2008 visitation.

      December 2008: Prompted due to the deterioration in UCB’s construction loan
       portfolio and decline in earnings, which led the FDIC to consider a composite
       interim CAMELS downgrade to a “3.” The FDIC subsequently downgraded
       UCB to a composite “3” rating and notified UCB in a letter dated April 20, 2009.

The FDIC also generally performed the following offsite monitoring activities on a
quarterly basis throughout the period of our review:

      contacted management to discuss significant changes in the bank’s risk profile
       and business activities;

      met with bank management to discuss quarterly financial results, correction of
       prior examination findings, and new activities; and

      reviewed Call Reports, UBPRs, SEC filings, press releases, and selected
       internally-prepared management reports, such as ALLL adequacy analyses.

Examiners notified FDIC regional management of significant changes in the bank’s risk
profile as a result of these activities.

Supervisory Actions

Table 7 further describes supervisory actions initiated by the FDIC, the FRBSF, and the
CDFI in 2008 and 2009.




                                             17
Table 7: FDIC, FRBSF, and CDFI Supervisory Actions Concerning UCB
Date                   Action Taken
July 24, 2008          BBR imposed by the FDIC and the CDFI to address BSA issues identified at the
                       February 2008 examination; terminated on June 30, 2009, after UCB fully
                       complied with the BBR and improved its BSA compliance program.
April 20, 2009         FDIC letter notifying the bank of a downgrade to a composite “3” rating and
                       designating the bank as “troubled.” The letter also restricted UCB’s issuance of
                       debt under the Temporary Liquidity Guarantee Program.
May 28, 2009           Early notification (dear CEO) letter was delivered to the Board, which further
                       restricted brokered deposits and the issuance of debt under the Temporary
                       Liquidity Guarantee Program.
June 30, 2009          Joint letter from the FDIC and the CDFI to UCB summarizing the April 2009
                       targeted review results and announcing that a Cease and Desist Order would be
                       issued. A letter from UCB to the FDIC dated July 29, 2009 acknowledged
                       UCB’s deterioration in its asset quality and concurred with examiners’ April
                       2009 targeted review findings.
September 3, 2009      A joint FDIC/CDFI Cease and Desist Order was issued to address issues
                       identified at the April 2009 targeted review. The Order required UCB to cease
                       and desist from engaging in unsafe or unsound banking and required UCB, by
                       December 31, 2009, to achieve and maintain adequate capital levels. The Order
                       also required UCB to develop and adopt an adequate capital plan within 60 days
                       of the date of the Order. UCB never developed an adequate plan.
September 9, 2009      FDIC letter notifying UCB of an interim rating downgrade to a composite “5.”
September 9, 2009      Written agreement between UCBH and the FRBSF that required UCBH to
                       develop a plan to raise capital within 60 days.
September 15, 2009     FRBSF letter to UCBH informing it of a composite rating downgrade.
September 17, 2009     SFRO letter to the bank restricting any additional transfers of assets to foreign
                       operations without the FDIC’s prior written consent.
Source: Correspondence between the FDIC and UCB and UCBH Form 8-K filings.

Supervisory Response to Board and Management Oversight

According to examination reports from 2002 through 2008, UCB’s Board and
management performed satisfactorily and were generally responsive to examination
findings and recommendations, as indicated by Management component ratings of “1” or
“2” during that timeframe. The Management component rating was first downgraded
from a “2” at the April 2009 targeted review, at which time a “4” component rating was
assigned.

DSC’s Risk Management Manual of Examination Policies states that the quality of
management is probably the single most important element in the successful operation of
a bank. The capability and performance of the Board and management is rated based
upon, but not limited to, an assessment of the following factors:

       The level and quality of oversight and support of all institution activities by the
        Board and management;




                                               18
      The ability of the Board and management, in their respective roles, to plan for,
       and respond to, risks that may arise from changing business conditions or the
       initiation of new activities or products;

      The adequacies of, and conformance with, appropriate internal policies and
       controls addressing the operations and risks of significant activities;

      The accuracy, timeliness, and effectiveness of management information and risk
       monitoring systems appropriate for the institution’s size, complexity, and risk
       profile;

      The adequacy of audits and internal controls to promote effective operations and
       reliable financial and regulatory reporting; safeguard assets; and ensure
       compliance with laws, regulations, and internal policies;

      Responsiveness to recommendations from auditors and supervisory authorities;
       and

      The extent that the Board and management are affected by, or susceptible to,
       dominant influence or concentration of authority.

A Management rating of “2” denotes satisfactory performance by management and the
Board and satisfactory risk management practices. Based on our review of FDIC
examination reports, particularly from 2007 forward, and discussions with FDIC and
former UCB staff, we concluded that UCB’s Board and management did not meet several
of the factors described above. In particular, the February 2008 examination report led to
a Matter Requiring Board Attention, requiring UCB’s Board and management to:

      address apparent violations and program issues pertaining to its BSA and Anti-
       Money Laundering program;

      improve its liquidity monitoring;

      develop a Board-approved contingency funding plan;

      develop a comprehensive strategic plan to include the integration of UCB’s
       Greater China strategy;

      assess its staffing, infrastructure needs, and management structure; and

      verify all unresolved high- and moderate-impact IT and general audit issues.

Examiners contemplated a “3” Management component rating, but after consultation
with the SFRO, the FDIC provided a “2” rating because it was confident that UCB would
remediate these issues and the bank’s financial condition was satisfactory. A follow-up
visitation in December 2008 found that UCB had made progress in addressing these



                                            19
issues. However, other FDIC examinations and documentation identified a number of
management-related findings at UCB as discussed in the following sections. These
issues are indicative of a less than satisfactory Board and management.

Dominant Management Official

One individual, who held the titles of UCB’s President, CEO, and Chairman of the
Board, exercised a considerable amount of influence over UCB’s operations. In an effort
to increase UCB’s assets, this individual was ultimately responsible for (1) fostering a
culture that led to the bank’s approval of a large number of exceptions to the bank’s loan
policy so UCB could make more loans, (2) fostering a combative culture where
management failed to downgrade non-performing loans in a timely manner, and (3) over-
paying to acquire financial institutions.

The August 2009 targeted review draft report noted that the President’s desire over time
to grow the bank ultimately imperiled it by fostering a culture that deterred the
identification and correction of problems by staff.

Board and Management Weaknesses

Examiners cited the following weaknesses with UCB’s Board and management:

      The March 2007 examination stated that examiners could not determine if the
       Board was apprised of UCB’s significant leverage strategy to grow its assets to
       $10 billion. UCB’s executive management stated that the Board was apprised of
       the strategy; however, UCB’s legal counsel directed management to not document
       the discussions due to liability concerns.

      The February 2008 examination reported Matters Requiring Board Attention,
       including an organizational assessment that would address, among other things,
       the management structure of the bank. The examination also recommended
       increased oversight by UCB’s Board to ensure that reported weaknesses were
       addressed in a timely manner.

Internal Loan Review and Management Controls

The April 2009 targeted review noted that UCB’s Board and management had not
supplied IARD with the necessary support to fulfill its mandate. IARD’s efforts were
frustrated, in part, due to a lack of stature and influence, which impeded its ability to
effectively downgrade credits. The review noted: “After roughly four years of existence,
IARD cannot fully quantify credit risk to a degree that provides senior management and
the Board with sufficient and accurate information to manage the institution’s risks.”

UCB’s President also delayed the issuance of an IARD loan review report to UCB’s
Board and examiners because it contained negative performance information about the
loans that were reviewed, according to UCB and examination staff interviewed.




                                            20
Finally, as discussed previously, management controls were not sufficient to prevent
apparent violations of federal securities laws by UCB officials and the issuance of
inaccurate financial statements.

Risk Management and Infrastructure

FDIC examination reports documented UCB’s difficulty in managing the risks associated
with its aggressive growth and implementing an adequate supportive infrastructure. For
example:

       The February 2008 examination noted that, after several years of existence,
        UCB’s Enterprise Risk Management function was unable to quantify or report
        risks to UCB’s Board and the bank’s management had not developed an
        overarching assessment of its enterprise-wide risks.

       The December 2008 visitation noted that UCB’s management needed to revisit its
        risk appetite and decide if its continued business prospects were vibrant enough to
        accept the risks associated with management’s asset growth and market share
        expectations.

       The 2007, 2008, and 2009 examination reports and reviews noted UCB’s high
        levels of senior management staff turnover, inexperienced staff, insufficient
        staffing levels, indeterminate job roles, and unclear responsibilities and authority.
        Similarly, the June 2009 UCBC targeted review noted that UCBC experienced
        elevated staff departures.

       The April 2009 targeted review noted that management’s failure to strengthen
        UCB’s risk management infrastructure was attributed, in part, to the bank’s
        strategy to reach $10 billion in assets, so it could meet an eligibility standard to
        purchase a bank in the People’s Republic of China. During UCB’s growth period,
        its assets nearly doubled in 4 years and the bank continued to rely on manual
        processes rather than employ adequate technology and appropriate staff to
        effectively manage the institution. While manual processes served the bank when
        it was smaller, these methods became unreliable as it grew. The review further
        stated that the lack of a fully developed risk management infrastructure hampered
        management’s efforts to control the bank’s deterioration and that its loan risk
        rating system was ineffective.

Integration of Foreign and Domestic Operations

Examiners noted the following with respect to UCB’s oversight of UCBC and the Hong
Kong branch:

       The March 2007 examination report noted that UCB had not adequately
        integrated the Hong Kong branch into its risk management framework due to




                                              21
        weaknesses in its credit underwriting and administration and BSA and IT
        operations.

       While the February 2008 examination found that the bank was managed in a
        satisfactory manner, it noted that UCB’s Board and management needed to
        develop and approve a comprehensive strategic plan that provided a vision for
        the future of the bank, including the integration of the Greater China strategy.

As discussed earlier, examination reports rated UCB management a “1” or a “2” until the
April 2009 targeted review. Given the examination findings detailed above, a “3”
management rating may have been more appropriate for the February 2008 examination.
A stronger and earlier supervisory response may have influenced UCB’s Board and
management to take corrective actions sooner in response to examiners’ findings and
enhance its risk management and infrastructure in support of the institution’s rapid
growth.

Supervisory Response to UCB’s Asset Quality

Asset quality is one of the most critical areas in determining the overall condition of a
bank. As discussed below, examiners sampled a reasonable number of loans and
successively downgraded UCB’s Asset Quality component rating. However, examiners
did not report significant concerns with UCB’s ADC and CRE loan concentrations and
the extent of UCB’s weak underwriting issues until the 2009 targeted reviews.

Examination Coverage of ADC and CRE Concentrations

Examination reports issued from 2005 through February 2008 generally noted UCB’s
elevated ADC and CRE concentrations and that UCB management was adequately
monitoring and mitigating the risks associated with these concentrations. The December
2008 visitation report noted deterioration in UCB’s construction and commercial loan
portfolios but reported that UCB’s overall CRE concentrations had declined and bank
management continued to monitor its CRE concentrations against capital and provided
the Board with reports that sufficiently disclosed the bank’s risk exposures.

Examiners first criticized UCB’s CRE concentrations in the April 2009 targeted review.
This review noted that the CRE concentrations were problematic because they accounted
for a substantial increase in adversely classified assets, and UCB underestimated the risk
associated with, and did not properly manage, its CRE portfolio. The August 2009
targeted review draft report noted several deficiencies with UCB’s lending practices,
which adversely impacted its CRE portfolio, and criticized UCB for cancelling planned
audits of its CRE portfolio, despite the fact that this portfolio had been identified as
having a high level of inherent risk.




                                            22
Examination Coverage of Underwriting and Credit Administration Practices

A discussion of the FDIC’s examination coverage of UCB’s underwriting and credit
administration follows, with an emphasis on examiners’ reviews of the bank’s loan files
and relevant findings in examination reports.

Loan File Reviews. Between 2002 and 2009, FDIC examiners reviewed from 9 percent
to 27 percent of UCB’s non-homogenous loans,17 representing between $237 million and
$2.2 billion of UCB’s loan portfolio. In comparison, UCB’s loan portfolio ranged from
$3 billion to $8 billion during this period. The percentage of non-homogenous loans and
total number of loans reviewed generally increased each year, with the largest loan
sample review conducted during the April 2009 targeted review. In this review, the loans
examined represented 26 percent of UCB’s total loan portfolio and 27 percent of its non-
homogenous loans. Examiners reviewed a commensurate cross-section of loans that
were representative of the concentrations in UCB’s major loan categories. The number
of loans reviewed appeared reasonable, based on informal guidance contained in a DSC
pre-examination planning memo, suggesting that examiners should generally review
between 15 percent and 30 percent of an institution’s loan portfolio during a full-scope
examination.18

From 2002 through 2009, examiners selected their loan samples during the pre-
examination planning process and derived their loan samples by reviewing UCB’s
delinquent loan reports, list of non-accrual loans, debt reports, performing credits, and
new loan originations since the last examination to see if there were changes in UCB’s
underwriting standards. In selecting loans for review, examiners paid particular attention
to loans that UCB management had concerns with, such as those on watch lists.
Examiners also considered the impact the economy had on UCB’s loan portfolio and
selected loans accordingly, using an FDIC database to help generate their loan samples,
which generated summary information on the loans, known as line sheets.

Examiners reviewed loan files and recorded instances where the files lacked sufficient
documentation to determine whether UCB used sound practices to originate and service
the loans. Exceptions included instances when UCB did not (1) demonstrate that the
loans had sufficient collateral; (2) perform adequate financial statement analyses; or
(3) obtain current appraisals.

In 2009, examiners also reviewed certain loans that were later believed to have been
originated as a result of illegal activities. During their review, examiners prompted UCB



17
   Non-homogenous loans have distinctive characteristics and are usually of larger dollar amounts than
homogenous loans. Construction, CRE, and commercial and industrial loans are non-homogenous loans,
while single family 1-4 loans are homogenous loans. The vast majority of UCB’s loans were non-
homogenous.
18
   The DSC Examination Documentation module provides guidance for examiners to follow when
conducting loan file reviews, including assessing underwriting and file documentation sufficiency, but does
not specify suggested sample sizes.




                                                    23
to downgrade these loans due to performance issues.19 These loans and approximately
150 others, as well as senior UCB management, are being investigated by other units
within and outside of the FDIC.

Examination Report Findings. The March 2007 examination noted underwriting and
credit administration weaknesses in UCB’s construction lending portfolio and UCB’s
Hong Kong branch and criticized approximately $15 million in credits. UCB initiated
corrective action during the examination and received a “1” Asset Quality rating, in part
because adverse classifications were low and had decreased by $10 million from the prior
examination. Findings from this examination were as follows:

        Guarantor financial statements were not consistently analyzed and were presented
         on an “as is” basis without adjustments. The statements reviewed were self-
         prepared by the guarantors, were not in accepted accounting format, and reflected
         substantial gains in real estate and other values that were not adequately
         supported.

        For the majority of loans sampled by examiners, UCB’s analysis of financial data
         was overly simplistic, listing only major assets and liabilities, the current assets
         ratio,20 and working capital.

        There were significant deficiencies with the Hong Kong branch’s underwriting
         standards because (1) the branch staff did not verify borrowers’ financial
         conditions or obtain tax returns from borrowers and guarantors, (2) the debt
         service coverage ratio calculation was not standardized, and (3) the branch’s
         underwriting standards did not meet those prescribed by UCB.

The February 2008 examination noted that almost all of UCB’s adversely classified
construction loans had collateral dependent exposures to borrowing entities and
guarantors that did not provide additional support or an alternative source of repayment.
The February 2008 examination also noted that UCB had not adequately monitored
participation loans purchased from other lenders and loans classified as “special
mention.”21 The December 2008 visitation noted that UCB needed to improve the stress
testing of its loan portfolio in order to better quantify the potential impact that changing
economic conditions could have had on its asset quality, earnings, and capital.
Examiners downgraded UCB’s Asset Quality component rating to a “2” at the February
2008 examination and a “3” at the December 2008 visitation.



19
   We did not evaluate whether the FDIC should have been cognizant of UCB’s alleged violations of
securities laws at an earlier time and note that the alleged violations involved several of UCB’s senior
officers.
20
   The current assets ratio is a measure of an institution’s ability to pay debts that are due within one year
and is calculated by dividing current assets by current liabilities. Current assets are assets that could be
converted into cash or cash equivalents within one year; current liabilities are debts or obligations that are
due within one year.
21
   Special mention loans denote assets with potential weaknesses warranting management’s close attention.




                                                      24
The April 2009 targeted review noted UCB’s failure to downgrade loans in a timely
manner and maximize recoveries on its increased volume of distressed assets and
identified certain concerns with asset quality, some of which were new and others that
were similar to those noted in prior examinations.22 Examiners again downgraded UCB’s
Asset Quality component rating to a “4.” Further, this review noted that several deficient
lending practices heavily contributed to UCB’s excessive level of adversely classified
assets. According to examination staff, the deficient lending practices related primarily
to construction and commercial loans that were originated in 2006 and 2007, when UCB
approved numerous exceptions to its loan policy in an effort to increase lending and its
assets to $10 billion so it could purchase UCBC. DSC officials stated that prior to 2009,
examinations did not identify the extent of the underwriting deficiencies because, in part,
UCB's loans were performing, the market was strong, and appraisals generally supported
the loans.

To the FDIC’s credit, examiners downgraded UCB’s Asset Quality ratings at consecutive
examinations. However, examiners did not pursue supervisory action related to risks in
this area until 2009. In that regard, the Formal and Informal Action Procedures Manual
states that the FDIC may consider BBRs for institutions that receive a composite
CAMELS or compliance rating of “2;” however, these resolutions are rare in such
instances. Nevertheless, BBRs could be used to address concerns noted in areas where
component “3” ratings were assigned, or to address high-risk areas in a particular lending
segment. Given the risks associated with UCB’s loan portfolio, a BBR may have been
warranted based on the December 2008 visitation to establish a stronger supervisory
tenor and elevated sense of concern.

Use of Targeted Reviews

In 2009, the FDIC switched from conducting point-in-time examinations to targeted
reviews of UCB. Targeted reviews are usually performed at large institutions, typically
focus on specific areas of risk, and are conducted approximately 3 to 4 times per year.
Point-in-time examinations are done annually and include an evaluation of all of the
CAMELS components. The FDIC has not issued formal guidance prescribing when an
institution should switch to targeted reviews, but according to FDIC management,
targeted reviews are triggered by certain changes, such as deterioration in a bank’s
financial condition. The decision to switch a bank from a point-in-time examination
schedule to targeted reviews is based on the judgment of FDIC regional office staff and
examiners.

The FDIC’s SFRO considered placing UCB on a targeted review schedule in 2008, as
recommended by examiners. However, the SFRO conducted point-in-time examinations
of UCB through 2008 because regional management concluded that these examinations
were sufficient, UCB’s risk profile was satisfactory, and this approach enabled the


22
  An examination official noted that the targeted review identified new loan administration issues related
to troubled debt restructuring and loss impairment analyses for problem loans that surfaced once asset
quality deteriorated.




                                                    25
FRBSF to meet statutory timeframes for examining UCBH in mid-2008 while avoiding
overlapping regulatory oversight.

The SFRO thoroughly considered its decision to delay placing UCB on a targeted review
schedule and documented its reasons for the delay. Even though UCB remained on the
point-in-time examination schedule until 2009, SFRO officials indicated that they closely
monitored the bank, obtained current information regarding UCB’s financial performance
and interim developments, identified deterioration in UCB’s asset quality and earnings in
the latter half of 2008 through the FDIC’s offsite monitoring efforts, and kept apprised of
the FRBSF’s 2008 examination findings. Nevertheless, in our view, UCB’s size, rapid
growth, and increased risk profile constituted triggering events for switching UCB to
targeted reviews at an earlier date. Switching to targeted reviews earlier would have
enabled examiners to be onsite more frequently and further focus their efforts on key
risks at an earlier date. Conducting targeted reviews during 2008 also may have provided
the FDIC with additional information upon which to base its October 2008 CPP funding
recommendation.

LIDI Program

The FDIC develops LIDI reports and associated rankings as an additional means to
measure the financial health of large institutions and risks to the DIF. Based on their
review, case managers assign an institution a rating from A (best) to E (worst) and an
“outlook” rating of positive, stable, or negative, which reflects an institution’s forward-
looking risks. According to DSC officials, given the forward-looking nature of the LIDI
Program, the LIDI ratings do not always match the CAMELS ratings because of their
timing and the point-in-time nature of the examinations. Table 8 presents the FDIC LIDI
rating definitions.

      Table 8: LIDI Rating Descriptions
       A    Low risk of concern regarding ultimate risk to the
            insurance funds.
       B    Ordinary level of concern regarding the ultimate risk for
            the insurance funds.
       C    More than ordinary level of concern regarding the
            ultimate risk to the insurance funds.
       D    High level of concern regarding the risk to the insurance
            funds.
       E    Serious concerns regarding the ultimate risk to the
            insurance funds.
      Source: FDIC Case Managers’ Manual.

UCB became subject to the LIDI program in the fourth quarter of 2006, when its assets
reached $10 billion. The FDIC conducted quarterly LIDI reviews and issued 10 related
reports, as required, beginning in the first quarter of 2007 and through the second quarter
of 2009. Each of the 10 reports identified UCB’s ability to manage its rapid growth and
high ADC and CRE concentrations as key risks and regulatory concerns. The six reports
issued in 2008 and 2009 identified risks related to rises in UCB’s problem loans. UCB’s



                                               26
LIDI outlook rating was “stable” through the second quarter of 2008; however, the rating
dropped to “negative” in the third quarter of 2008.

UCB’s LIDI ratings for each quarter in 2008 were “C” compared to composite CAMELS
“2” ratings for the two 2008 examinations of UCB. The “C” LIDI ratings resulted from
increased loan classifications and declined earnings. DSC officials noted that the lower
LIDI ratings were indicative of the 12-month forward-looking orientation of that program
versus the more point-in-time focus of the CAMELS ratings, as discussed earlier.

Implementation of PCA

Section 38, Prompt Corrective Action, of the FDI Act establishes a framework of
mandatory and discretionary supervisory actions pertaining to all insured depository
institutions. The section requires that regulators take progressively more severe actions,
known as “prompt corrective actions,” as an institution’s capital level deteriorates. The
purpose of section 38 is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. Part 325, Capital Maintenance, of the FDIC Rules
and Regulations, defines the capital measures used in determining the supervisory actions
that will be taken pursuant to section 38 for FDIC-supervised institutions. Part 325 also
establishes procedures for the submission and review of capital restoration plans and for
the issuance of directives and orders pursuant to section 38. Table 9 provides UCB’s
capital ratios from 2002 through September 2009.

Table 9: UCB’s Capital Levels
                   Tier 1 Leverage    Tier 1 Risk       Total Risk         PCA Capital
 Period Ended           Capital      Based Capital     Based Capital        Category
 PCA Threshold       5% or more        6% or more       10% or more
 Dec-02                7.57%            10.26%            11.52%        Well Capitalized
 Dec-03                7.86%            10.92%            12.18%        Well Capitalized
 Dec-04                8.49%            11.42%            12.67%        Well Capitalized
 Dec-05                8.26%             9.91%            10.98%        Well Capitalized
 Dec-06                9.30%             9.67%            10.53%        Well Capitalized
 Dec-07                7.42%             8.55%            10.80%        Well Capitalized
 Dec-08                9.06%            11.72%            14.24%        Well Capitalized
                                                                        Undercapitalized
                                                                        PCA letter sent
 June-09                 4.02%           5.32%             7.92%        August 11, 2009.
                                                                        Significantly
                                                                        Undercapitalized
                                                                        PCA letter sent
 Sept-09                 2.20%           3.16%             5.91%        October 29, 2009.
Source: UBPRs for UCB.

Based on the supervisory actions taken with respect to UCB, the FDIC properly
implemented applicable PCA provisions of section 38 of the FDI Act. The FDIC timely
notified UCB of its Undercapitalized and Significantly Undercapitalized status, required
UCB to file a capital restoration plan with the FDIC, and required UCB to comply with
mandatory restrictions of section 38 of the FDI Act. These restrictions related to UCB’s



                                             27
asset growth, acquisitions, new activities, new branches, dividend payments, management
fees, capital distributions, and senior executive compensation.

Specifically, the FDIC’s supervisory actions related to PCA were as follows:

      On August 11, 2009, the FDIC sent a PCA notification letter to UCB informing it
       of its Undercapitalized status and required UCB to develop a capital restoration
       plan.

      On October 29, 2009, the FDIC sent a PCA notification letter to UCB informing it
       of its Significantly Undercapitalized status.

      On November 2, 2009, a PCA Directive noted that UCB submitted to the FDIC an
       unacceptable capital restoration plan on September 15, 2009. The FDIC
       concluded the plan contained unrealistic and unobtainable goals. The Directive
       required UCB to submit an acceptable revised capital restoration plan, which
       UCB never did.


Capital Purchase Program

On November 14, 2008, UCBH received $298.7 million in TARP CPP funds and
subsequently down-streamed the money to UCB. Treasury lost this investment when
UCB was closed on November 6, 2009. UCB was the first depository institution to lose
TARP funds. Nevertheless, we determined that (1) the FDIC followed applicable
procedures in recommending UCBH for CPP funding and (2) examiners evaluated
UCB’s compliance with the CPP Securities Purchase Agreement in accordance with DSC
guidance.

CPP Criteria

On October 20, 2008, the Treasury issued final viability criteria for the federal banking
agencies to use in reviewing CPP applications. The DSC regional offices reviewed the
CPP applications from state nonmember banks and relied upon the Treasury’s guidance
in determining whether the institutions qualified for CPP funding. The criteria indicated
that the CPP eligibility recommendation was to be based on an assessment of the overall
strength and viability of the applicant without considering potential funds received under
the CPP. The viability criteria included an institution’s examination ratings and selected
performance and capital ratios. The Treasury also provided the federal banking agencies
with a TARP Capital Purchase Program Case Decision Memo. The FDIC used this
document to record its findings related to: UCB’s CAMELS and Community
Reinvestment Act ratings and selected performance ratios; UCB’s viability; the FDIC’s
supervisory strategy; and relevant actions. The FDIC also included narrative comments
in the document in support of its recommendation.




                                            28
In general, if an institution met the Treasury’s viability criteria for CPP participation, the
appropriate federal banking agency recommended that the Treasury approve it for CPP
funding.23 In turn, the Treasury made the final CPP funding decision. In exchange for
CPP funds, the Treasury received preferred shares and warrants or future rights to
purchase shares. Banks were required to pay the Treasury a 5-percent dividend for
5 years and a 9-percent dividend thereafter. Banks had the right to suspend the dividend
payments, which UCBH did, to preserve capital.

The FDIC’s Recommendation of UCBH for CPP Funding

On October 21, 2008, UCBH filed its CPP application with the FRBSF, its primary
regulator, and the FDIC. The FDIC, UCB’s primary regulator, reviewed the application
and recommended Treasury approval of UCBH for CPP funding. At the time of its
application, UCB met all of the Treasury’s eligibility criteria and the FDIC considered
UCB to be a “viable” institution. The FDIC was not aware of UCB’s serious financial
reporting matters when it assessed UCB’s TARP application in October 2008; these
matters became apparent in 2009, after the investigation by UCBH’s audit committee.
UCB’s capital and leverage ratios qualified it as a Well Capitalized institution and the
bank met the Treasury’s viability criteria associated with classified and nonperforming
asset levels, and construction and development loan concentrations. UCB’s most recent
CAMELS composite rating was a “2” (based on the February 2008 examination) and its
most recent Community Reinvestment Act rating was “Outstanding.” Further, the
FRBSF assigned a satisfactory rating to UCBH and UCB received acceptable external
debt ratings.

UCBH’s CPP Application Timeline

Treasury had requested the FDIC and other banking regulators to quickly recommend
viable community banks for CPP funding. In response, SFRO representatives contacted
UCB and other banks to solicit their interest in the program and UCB was one of the first
institutions that the FDIC recommended for CPP funding. UCB expressed an interest in
CPP funding on October 17, 2008, and 4 days later, UCBH submitted its CPP
application. UCBH requested $298.7 million, the maximum allowable funding amount.24
The FDIC forwarded the application and its case decision memo to the Treasury on
October 22, 2008. The Treasury reviewed the FDIC’s recommendation on October 23,
2008, and requested additional information about UCB concerning deficiencies with its
BSA program and a potential purchase of UCB by a foreign bank. The FDIC provided
this information, and on October 24, 2008, the Treasury unanimously recommended
preliminary approval of UCBH’s CPP application. On November 14, 2008, the Treasury
disbursed $298.7 million in CPP funds to UCBH. UCBH down-streamed the funds to
UCB, which used the TARP proceeds to make consumer and commercial loans,
according to examiners’ documentation.
23
   Institutions that did not meet the Treasury’s criteria were reviewed by the CPP Interagency Council,
which was comprised of senior representatives from the federal banking agencies. Because UCB met the
Treasury’s eligibility criteria, it was not subject to CPP Interagency Council review.
24
   The maximum amount of capital eligible for purchase by the Treasury under the CPP is the lesser of
(i) an amount equal to 3 percent of the Total Risk-Weighted Assets of the applicant or (ii) $25 billion.




                                                    29
On October 27, 2008, 5 days after the FDIC had recommended UCBH for CPP funding, a
Treasury staff member forwarded an e-mail from an anonymous source to DSC
headquarters and senior Treasury officials. The e-mail questioned the Treasury’s
decision to provide CPP funding to UCB and the integrity of UCB’s CEO. The FDIC
and the Treasury considered the e-mail but because the e-mail was from an anonymous
source, its allegations were unsubstantiated, and UCBH met the Treasury’s eligibility
criteria, DSC did not change its recommendation decision.

The FDIC’s Review of UCBH’s CPP Funding Request

We confirmed that the FDIC relied upon the Treasury’s viability criteria and case
decision memo to assess UCBH’s request for CPP funding. We also found that the Total
Risk-Weighted Assets figure provided by UCB in its CPP application substantially
matched the figure in UCB’s Call Report.25

We interviewed the FDIC’s Case Manager for UCB to understand what actions were
taken in reviewing the CPP application and preparing the case decision memo. The Case
Manager indicated that he relied on UCB’s most recent FDIC risk management
examination, which commenced in February 2008; the most recent Call Report data,
which was as of June 30, 2008; and pro forma Call Report data, as of September 30,
2008.26 The Case Manager stated that he also contacted the CDFI and the FRB regarding
UCB’s application. Neither institution objected to UCB’s receipt of CPP funding. The
Case Manager indicated that he was not aware of any accounting issues at UCB at the
time of his review of the bank’s CPP application. As discussed earlier, had the FDIC
transitioned UCB to targeted reviews during 2008, the FDIC may have had additional
information upon which to make a CPP funding recommendation.

In recommending UCBH for CPP funding, DSC was aware of certain negative
information about UCB, but these issues were not considered significant enough to
recommend against CPP funding. At the time of UCB’s application, the most recent
LIDI report identified concerns about UCB’s CRE concentrations and rapid growth, and
contained a “negative” outlook rating and a “C” overall rating, due to a decline in UCB’s
asset quality and earnings. The report also stated, however, that UCB’s capital appeared
adequate and UCB was well managed. The Case Manager was aware that UCB was
subject to a July 2008 BBR regarding deficiencies in its BSA program and found that
UCB had made progress in addressing these issues.

We concluded that the FDIC followed applicable procedures in recommending UCBH
for CPP funding. We also note that the financial ratios that the FDIC used to determine
that UCBH met the eligibility criteria may have been erroneous because these ratios were
computed according to UCB’s 2008 financial statements, which were later found to be in

25
   The CPP application requested only one financial figure from UCB, its Total Risk-Weighted Assets. The
figure that UCB reported on its application was $9,957,908,000, compared to $9,947,144,000 on UCB’s
June 30, 2008 Call Report. We determined that this difference of 0.11 percent was not material.
26
   UCB had not finalized its September 30, 2008 financial data at the time of its CPP application.




                                                  30
need of restatement. Since UCB is now closed and its 2008 financial statements are not
likely to be restated, we cannot conclude on whether UCB would have failed any of the
eligibility criteria had the ratios been based on accurate financial data. For the same
reason, we cannot opine on whether UCBH’s Total Risk-Weighted Assets figure reported
in its CPP application was accurate, despite the fact that it substantially matched the
figure in UCB’s June 30, 2008 Call Report. Finally, we did not find any reason to
believe that the FDIC should have been aware of the problems with UCB’s financial
statements at the time of UCBH’s CPP application.

Examiners’ Evaluation of UCB’s Compliance with the CPP Securities Purchase
Agreement

The CPP Securities Purchase Agreement (Agreement) describes the CPP recipient’s
responsibility for issuing shares and fulfilling other requirements in exchange for the
Treasury’s investment. FDIC examiners evaluated UCB’s compliance with the

Agreement in accordance with DSC guidance issued in February 2009.27 The August
2009 targeted review draft report identified one instance where UCB was in apparent
violation of the CPP provisions and one instance where UCB apparently violated
excessive compensation standards imposed by regulation.

To evaluate UCB’s compliance with the Agreement, FDIC examiners reviewed
applicable statutes and regulations, FDIC guidance, UCB’s compensation committee
minutes, compensation and employment agreements, and related amendments for UCB’s
five highest paid executives and UCBH’s dividend payments. Examiners prepared
memoranda detailing their assessment of UCB’s compliance with the Agreement. These
memoranda identified areas of UCB compliance and apparent non-compliance with the
Agreement and contained recommendations for improvement. The FDIC examiners
reviewed and documented UCB’s compliance with the CPP rules and regulations in April
2009 and as a part of the fieldwork performed in support of the August 2009 targeted
review.

The August 2009 targeted review draft report identified the following apparent
violations:

        UCB was in apparent violation of the CPP standards for compensation and
         corporate governance because UCB’s Board had not established an excessive or
         luxury expenditures policy, filed the policy with the Treasury, and posted the
         policy on its Internet Web site.28


27
   CPP compliance provisions were established through the EESA and the Treasury’s rules codified under
section 31 of the Code of Federal Regulations (CFR), Part 30. DSC issued implementing guidance through
regional director memorandum, classification number 6300: Examination Guidance for Financial
Institutions Receiving Subscriptions from the U.S. Department of the Treasury’s TARP CPP Program,
dated February 9, 2009.
28
   This requirement is found at 31 CFR Part 30, Section 111(d), TARP Standards for Compensation and
Corporate Governance; Interim Final Rule.




                                                  31
        UCB’s former President/CEO claimed and was reimbursed for travel and other
         business expenses, in contravention of Appendix A to Part 364 of the Interagency
         Guidelines Establishing Standards for Safety and Soundness.29 These expenses
         included expensive dinners where UCB had not maintained branch offices and
         corporate gifts that were considered to be unreasonable and disproportionate to
         services performed by the CEO. Further, the draft targeted review reported that
         there was no evidence that UCB’s Board had reviewed or approved the expenses
         for which the President/CEO had been reimbursed.

The following summarizes areas where examiners found UCB to be in compliance with
the CPP. According to their documentation, examiners:

        Found that UCB management amended the compensation and employment
         agreements of its five highest paid executives to comply with executive
         compensation restrictions imposed by the CPP. However, examiner
         documentation noted that UCB’s CEO had not certified that the compensation and
         employment agreements complied with executive compensation standards
         imposed by the TARP CPP interim final rule.30

        Determined, in conjunction with an FDIC legal counsel’s opinion, that a $150,000
         signing bonus, paid in April 2009 to UCB’s incoming President, was allowed
         under the CPP and that UCB was compliant with Section 111(b) of the EESA,
         which placed restrictions on executive compensation.

        Concluded that UCB was in general compliance with the CPP provisions covering
         “Golden Parachute” payments, based on their review of related documentation.
         Examiners found that two former UCB Presidents signed agreements that they
         would not receive golden parachute payments while the bank participated in the
         CPP, nor would they accept other bonuses or incentive compensation based on
         certain criteria.

        Recommended that the salary provisions of the employment contracts of two
         executives (the President/CEO and the Director of Community Banking) be
         amended to conform with CPP regulations; UCB subsequently amended these
         contracts.

        Concluded that as of August 3, 2009, UCB’s maintenance of records related to the
         CPP was satisfactory.

        Recalculated UCB’s capital ratios without including the $298.7 million in CPP
         funds and found that, as of April 2009, UCB would still have been considered
         Well Capitalized. Under this scenario, UCB’s leverage, Tier I Risk-based Capital
         and Total Risk-based Capital levels would have been 6.74 percent, 8.71 percent,
29
   12 CFR, Part 364 appendix A III, Prohibition of Compensation that Constitutes an Unsafe and Unsound
Practice, A. – Excessive Compensation.
30
   31 CFR § 30.12(a)(3)(i).




                                                  32
       and 11.23 percent, respectively. These capital figures, however, were likely based
       on erroneous financial data, based on the findings of the investigation initiated by
       UCBH, which concluded in September 2009.

      Reviewed UCBH’s dividend payments to shareholders and found that UCBH
       appeared to be in compliance with restrictions on paying dividends. However,
       examiners criticized UCBH’s dividend payments during periods when UCB
       reported a loss, due to the bank’s negative earnings and low levels of capital.
       UCBH eventually stopped paying dividends to the Treasury for the CPP funds, as
       allowed under the Agreement.


Corporation Comments
After we issued our draft report, management provided additional information for our
consideration, and we revised our report to reflect this information, as appropriate. On
July 20, 2010, the Director, DSC, provided a written response to the draft report. That
response is provided in its entirety as Appendix 5 of this report.

DSC reiterated the OIG’s conclusions regarding the causes of UCB’s failure. With
regard to our assessment of the FDIC’s supervision of UCB, DSC stated that from 2005
through 2009, the FDIC and the CDFI jointly and separately completed several
examinations, visitations, reviews and other oversight activities of UCB. Through these
activities, examiners identified key risks and brought them to the attention of UCB’s
Board and management in examination reports, and other correspondence. DSC pointed
out that in December 2008, the FDIC and the CDFI downgraded UCB’s Asset Quality
and Earnings component ratings to “3” and identified further deterioration during an
April 2009 joint targeted review. DSC also stated that UCBH’s external auditor found
that UCB’s management had begun to conceal serious financial reporting issues around
October 2008.

Finally, DSC stated that it has issued guidance from 2006 through 2009 that re-
emphasizes the importance of monitoring institutions that have concentrated ADC and
CRE exposures and rely on volatile non-core funding sources.




                                            33
                                                                             Appendix 1

                      Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if the DIF incurs a material loss with respect to an insured
depository institution, the Inspector General of the appropriate federal banking agency
shall prepare a report to that agency, reviewing the agency’s supervision of the
institution. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

Our primary audit objectives were to (1) determine the causes of the financial
institution’s failure and resulting material loss to the DIF and (2) evaluate the FDIC’s
supervision of UCB, including the FDIC’s implementation of the PCA provisions of
section 38 of the FDI Act. In November 2008, UCB received $298.7 million through the
Treasury’s TARP CPP. As a result, the third objective of this review was to determine
whether the FDIC followed applicable procedures in recommending UCBH for CPP
funding and in monitoring UCB’s compliance with the CPP Securities Purchase
Agreement.
We conducted this performance audit from January 2010 to July 2010 in accordance with
generally accepted government auditing standards. These standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

Scope and Methodology

The scope of this audit focused on UCB’s business operations from 2002 until its failure
on November 6, 2009. Our work also included an evaluation of the regulatory
supervision of the institution during this same time period.

To accomplish our objectives, we performed the following procedures and techniques:

        Analyzed examination reports prepared by the FDIC and the CDFI from 2002
         through 2009 as well as FRBSF examination reports prepared between 2005 and
         2008.

        Reviewed the following:

              Pertinent regulations, policies, procedures, and guidance.

              UBPR and Call Report data.

              Bank data and correspondence maintained in DSC’s SFRO.



                                              34
                                                                                Appendix 1

                     Objectives, Scope, and Methodology

             Reports prepared by the Division of Resolutions and Receiverships (DRR)
              and DSC’s Washington, D.C. office staff related to the institution’s failure.

             Documentation pertaining to offsite monitoring activities performed by the
              FDIC.

             Relevant records maintained by the institution’s external auditors, KPMG
              and PwC.

             Form 10-K and Form 8-K SEC filings.

             Treasury’s viability criteria for recommending institutions for CPP funding.

      Interviewed the following officials:

             DSC officials and examination staff in Washington, D.C. and the SFRO.

             DRR officials and contractors in the Irvine, California field office.

             KPMG and PwC officials responsible for auditing UCB’s financial
              statements and their legal counsels.

             The CDFI examiner-in-charge who worked on the FDIC examinations of
              UCB.

             SEC and FRBSF officials.

Coordination with the Special Inspector General for the Troubled Asset
Relief Program (SIGTARP)

We coordinated with SIGTARP in completing the TARP CPP objective.

Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, examination
reports, and interviews of examiners to understand UCB’s management controls
pertaining to causes of failure and material loss as discussed in the body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including reports of examination, correspondence files, and


                                              35
                                                                             Appendix 1

                   Objectives, Scope, and Methodology

testimonial evidence to corroborate data obtained from systems that were used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (GPRA) directs Executive Branch
agencies to develop a customer-focused strategic plan, align agency programs and
activities with concrete missions and goals, and prepare and report on annual
performance plans. For this material loss review, we did not assess the strengths and
weaknesses of DSC’s annual performance plan in meeting the requirements of the GPRA
because such an assessment is not part of the audit objectives. DSC’s compliance with
the GPRA is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with PCA provisions by timely issuing PCA letters to
UCB, notifying it of its Undercapitalized and Significantly Undercapitalized status. We
also analyzed the restrictions that were imposed through PCA letters and Directives and
assessed the FDIC’s monitoring of UCB’s compliance with CPP provisions.

The results of our tests were discussed, where appropriate, in the report. Additionally, we
assessed the risk of fraud and abuse related to our objectives in the course of evaluating
audit evidence.

Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes,
trends, and common characteristics of FDIC-supervised financial institution failures that
had resulted in a material loss to the DIF. The memorandum also indicated that the OIG
planned to provide more in-depth coverage of those issues and make related
recommendations, when appropriate. Since May 1, 2009, the OIG has issued additional
MLR reports related to failures of FDIC-supervised institutions and these reports can be
found at http://www.fdicig.gov. In June 2010, the OIG initiated an audit, the objectives
of which are to (1) determine the actions that the FDIC has taken to enhance its
supervision program since May 2009, including those specifically in response to the May
2009 memorandum, and (2) identify trends and issues that have emerged from
subsequent MLRs.

In addition, with respect to more in-depth coverage of specific issues, in May 2010, the
OIG initiated an evaluation of the role and federal regulators’ use of the Prompt
Regulatory Action provisions of the FDI Act (section 38, PCA and section 39, Standards
for Safety and Soundness) in the banking crisis.




                                            36
                                                                                   Appendix 2

                                Glossary of Terms
Term                 Definition
Acquisition,     ADC loans are a component of Commercial Real Estate that provide
Development, and funding for acquiring and developing land for future construction, and
Construction     providing interim financing for residential or commercial structures.
(ADC) Loans
Adversely            Assets subject to criticism and/or comment in an examination report.
Classified Assets    Adversely classified assets are allocated on the basis of risk (lowest to
                     highest) into three categories: Substandard, Doubtful, and Loss.

Allowance for        The ALLL is an estimate of uncollectible amounts that is used to reduce
Loan and Lease       the book value of loans and leases to the amount that is expected to be
Losses (ALLL)        collected. It is established in recognition that some loans in the
                     institution’s overall loan and lease portfolio will not be repaid. Boards
                     of directors are responsible for ensuring that their institutions have
                     controls in place to consistently determine the allowance in accordance
                     with the institutions' stated policies and procedures, generally accepted
                     accounting principles, and supervisory guidance.

Bank Secrecy Act     Congress enacted the BSA of 1970 to prevent banks and other financial
(BSA)                service providers from being used as intermediaries for, or to hide the
                     transfer or deposit of money derived from, criminal activity. The BSA
                     requires financial institutions to maintain appropriate records and to file
                     certain reports, including cash transactions over $10,000 via the
                     Currency Transactions Reports (CTR). These reports are used in
                     criminal, tax, or regulatory investigations or proceedings.

Call Report          Reports of Condition and Income, often referred to as Call Reports,
                     include basic financial data for insured commercial banks in the form of
                     a balance sheet, an income statement, and supporting schedules.
                     According to the Federal Financial Institutions Examination Council’s
                     (FFIEC) instructions for preparing Call Reports, national banks, state
                     member banks, and insured nonmember banks are required to submit a
                     Call Report to the FFIEC’s Central Data Repository (an Internet-based
                     system used for data collection) as of the close of business on the last
                     day of each calendar quarter.

Commercial Real      CRE loans are land development and construction loans (including
Estate (CRE)         1-to-4 family residential and commercial construction loans), and other
Loans                land loans. CRE loans also include loans secured by multifamily
                     property and nonfarm nonresidential property, where the primary source
                     of repayment is derived from rental income associated with the property,
                     or the proceeds of the sale, refinancing, or permanent financing of the
                     property.




                                              37
                                                                              Appendix 2

                            Glossary of Terms

Term             Definition

Concentration    A concentration is a significantly large volume of economically related
                 assets that an institution has advanced or committed to a certain industry,
                 person, entity, or affiliated group. These assets may, in the aggregate,
                 present a substantial risk to the safety and soundness of the institution.

FDIC’s           The FDIC’s supervision program promotes the safety and soundness of
Supervision      FDIC-supervised institutions, protects consumers’ rights, and promotes
Program          community investment initiatives by FDIC-supervised institutions. The
                 FDIC’s Division of Supervision and Consumer Protection
                 (DSC) (1) performs examinations of FDIC-supervised institutions to
                 assess their overall financial condition, management policies and
                 practices (including internal control systems), and compliance with
                 applicable laws and regulations and (2) issues related guidance to
                 institutions and examiners.

Federal Home     FHLBs provide long- and short-term advances (loans) to their members.
Loan Bank        Advances are primarily collateralized by residential mortgage loans, and
(FHLB)           government and agency securities. Community financial institutions
                 may pledge small business, small farm, and small agribusiness loans as
                 collateral for advances. Advances are priced at a small spread over
                 comparable U.S. Department of the Treasury obligations.

Form 8-K         A form that the Securities and Exchange Commission (SEC) requires
                 publicly-traded companies to file whenever a significant event happens.
                 These events may affect the company's financial state and, therefore, the
                 SEC believes that they should be known to the public. Examples of
                 these events include an acquisition, merger, bankruptcy, or change in the
                 composition of the board of directors. Publicly-traded companies must
                 file a Form 8-K within 4 days of the event.

Form 10-K        An annual report required by the SEC that provides a comprehensive
                 summary of a public company's performance. The report includes
                 information such as company history, organizational structure, executive
                 compensation, equity, subsidiaries, and audited financial statements,
                 among other information.

Formal Actions   Notices or orders issued by the FDIC against insured financial
                 institutions and/or individual respondents. The purpose of formal
                 actions is to correct noted safety and soundness deficiencies, ensure
                 compliance with federal and state banking laws, assess civil money
                 penalties, and/or pursue removal or prohibition proceedings. Formal
                 actions are legally enforceable. Final orders are available to the public
                 after issuance.




                                         38
                                                                                   Appendix 2

                                Glossary of Terms

Term                 Definition

Informal Actions     Voluntary commitments made by an insured financial institution’s board
                     of directors. Such actions are designed to correct noted safety and
                     soundness deficiencies or ensure compliance with federal and state laws.
                     Informal actions are not legally enforceable and are not available to the
                     public.

Large Insured        The FDIC established the LIDI program to assess and report on emerging
Depository           risks at all institutions with total assets of $10 billion or more as well as
Institution (LIDI)   other selected institutions. Under this program, regional case managers
Program              perform ongoing analyses of emerging risks within each insured
                     institution and assign a quarterly risk rating. Case managers also
                     maintain contact with the primary federal regulator for each institution in
                     the LIDI program. Data obtained through this program are analyzed and
                     key issues are reported to corporate executives regularly for use in policy
                     and operational discussions. In addition, senior financial institution
                     analysts with the Complex Financial Institutions Branch complete offsite
                     analyses in order to meet the Corporation’s risk information needs and
                     form appropriate supervisory strategies.

Material Loss        As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it
                     exceeds the greater of $25 million or 2 percent of an institution’s total
                     assets at the time the FDIC was appointed as the receiver.
Offsite Review       The FDIC’s Offsite Review Program is designed to identify emerging
Program              supervisory concerns and potential problems so that supervisory
                     strategies can be adjusted appropriately. Offsite reviews are performed
                     quarterly for each bank that appears on the Offsite Review List. Regional
                     management is responsible for implementing procedures to ensure that
                     Offsite Review findings are factored into examination schedules and
                     other supervisory activities.
Prompt               The purpose of PCA is to resolve the problems of insured depository
Corrective Action    institutions at the least possible long-term cost to the Deposit Insurance
(PCA)                Fund. Part 325, subpart B, of the FDIC Rules and Regulations, 12 CFR,
                     section 325.101, et. seq., implements section 38, Prompt Corrective
                     Action, of the FDI Act, 12 United States Code section 1831(o), by
                     establishing a framework for determining capital adequacy and taking
                     supervisory actions against depository institutions that are in an unsafe or
                     unsound condition. The following terms are used to describe capital
                     adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                     (3) Undercapitalized, (4) Significantly Undercapitalized, and
                     (5) Critically Undercapitalized.

                     A PCA Directive is a formal action seeking corrective action or
                     compliance with the PCA statute with respect to an institution that falls
                     within any of the three categories of undercapitalized institutions.




                                              39
                                                                           Appendix 2

                           Glossary of Terms
Term            Definition

Uniform Bank    The UBPR is an individual analysis of financial institution financial data
Performance     and ratios that includes extensive comparisons to peer group
Report (UBPR)   performance. The report is produced by the Federal Financial Institutions
                Examination Council for the use of banking supervisors, bankers, and the
                general public and is produced quarterly from Call Report data submitted
                by banks.

Uniform         Financial institution regulators and examiners use the Uniform Financial
Financial       Institutions Rating System to evaluate a bank’s performance in six
Institutions    components represented by the CAMELS acronym: Capital adequacy,
Rating System   Asset quality, Management practices, Earnings performance, Liquidity
                position, and Sensitivity to market risk. Each component, and an overall
(UFIRS)
                composite score, is assigned a rating of 1 through 5, with 1 having the
                least regulatory concern and 5 having the greatest concern.




                                        40
                                                                              Appendix 3

                               Acronyms

ADC      Acquisition, Development, and Construction

ALLL     Allowance for Loan and Lease Losses

BBR      Bank Board Resolution
BSA      Bank Secrecy Act

CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and Sensitivity to
         Market Risk

CDFI     California Department of Financial Institutions

CEO      Chief Executive Officer

CFR      Code of Federal Regulations

CPP      Capital Purchase Program

CRE      Commercial Real Estate

DIF      Deposit Insurance Fund

DRR      Division of Resolutions and Receiverships

DSC      Division of Supervision and Consumer Protection

EESA     Emergency Economic Stabilization Act of 2008

FDI      Federal Deposit Insurance

FHLB     Federal Home Loan Bank

FRB      Board of Governors of the Federal Reserve System

FRBSF    Federal Reserve Bank of San Francisco

GPRA     Government Performance and Results Act of 1993

IARD     Independent Asset Review Division

IT       Information Technology

LIDI     Large Insured Depository Institution

OCC      Office of the Comptroller of the Currency

OIG      Office of Inspector General

ORL      Offsite Review List

OTS      Office of Thrift Supervision




                                        41
                                                                            Appendix 3

                              Acronyms
PCA       Prompt Corrective Action

PwC       PricewaterhouseCoopers LLC

REO       Real Estate Owned

SFRO      San Francisco Regional Office

SIGTARP   Special Inspector General for the Troubled Asset Relief Program

TARP      Troubled Asset Relief Program

UBPR      Uniform Bank Performance Report

UCB       United Commercial Bank

UCBC      United Commercial Bank (China) Limited

UCBH      United Commercial Bank Holdings, Inc.




                                     42
                       Appendix 4

Organizational Chart




         43
                                                                                     Appendix 5
                                     Corporation Comments



Federal Deposit Insurance Corporation
   550 17th Street NW, Washington, D.C. 20429-9990              Division of Supervision and Consumer Protection

                                                                        July 20, 2010
TO:               Stephen Beard
                  Assistant Inspector General for Material Loss Reviews

                  /Signed/
FROM:             Sandra L. Thompson
                  Director

SUBJECT:          Draft Audit Report Entitled, Material Loss Review of United Commercial Bank, San
                  Francisco, California (Assignment No. 2010-019)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, the Federal Deposit Insurance
Corporation’s Office of Inspector General (OIG) conducted a material loss review of United
Commercial Bank (UCB), San Francisco, California, which failed on November 6, 2009. This
memorandum is the response of the Division of Supervision and Consumer Protection (DSC) to the
OIG’s Draft Report (Report) received on June 25, 2010.

UCB failed due to inadequate oversight by the Board of Directors (Board) and management during the
institution’s rapid expansion. Management controls were insufficient to prevent the occurrence of
inaccuracies, omissions, and misrepresentations by UCB management and staff and ultimately masked
the true condition of the institution. Further contributing to UCB’s failure were the high
concentrations in acquisition, development, and construction (ADC) and commercial real estate (CRE)
loans supported by heavy reliance on non-core funding sources. UCB was closed due to overall
deterioration in its loan portfolio, poor earnings, and inadequate capital.

From 2005 through 2009, the FDIC and the California Department of Financial Institutions (CDFI)
jointly and separately completed four examinations, one targeted review, two visitations, three offsite
reviews, two relationship manager contacts, and quarterly Large Insured Depository Institution (LIDI)
reviews. Examiners identified key risks and brought them to the attention of UCB’s Board and
management in examination reports and other correspondence. In December 2008, FDIC and CDFI
downgraded both asset quality and earnings to component ratings of “3,” and further deterioration was
discovered during the April 2009 joint targeted review. Subsequently, the holding company’s external
auditor revealed that UCB’s management had begun around October 2008, to conceal serious financial
reporting issues. The deterioration noted in the April 2009 targeted review coupled with the reporting
irregularities resulted in substantially higher than projected provision expenses, further rating
downgrades, and the issuance of a formal enforcement action. UCB was unable to resolve the
mounting problems and raise capital to remain viable.

DSC issued Interagency Guidance on CRE Monitoring in 2006 and a Financial Institution Letter to banks
on Managing Commercial Real Estate Concentrations in a Challenging Environment in 2008
that re-emphasized the importance of robust credit risk-management practices for institutions with
concentrated CRE exposures and set forth broad supervisory expectations. Additionally, DSC issued a
Financial Institution Letter in 2009 on The Use of Volatile or Special Funding Sources by Financial
Institutions That Are in a Weakened Condition to enhance our supervision of institutions, such as
UCB, with concentrated CRE/ADC lending and reliance on volatile non-core funding.

Thank you for the opportunity to review and comment on the Report.

                                                     44
